DOCKET NO. ___________
IN THE
SUPREME COURT OF THE UNITED STATES

JAMES MILTON DAILEY
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

UNOPPOSED APPLICATION FOR TWENTY (20) DAY EXTENSION OF TIME IN
WHICH TO FILE PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
SUPREME COURT
COMES NOW THE PETITIONER, JAMES MILTON DAILEY, by and through
undersigned counsel, and pursuant to Supreme Court Rule 13-5, respectfully requests an extension
of time of twenty (20) days within which to file his Petition for Writ of Certiorari to the Florida
Supreme Court. In support of his request, Petitioner, through counsel, states as follows:
1. Petitioner is an indigent death-sentenced inmate in the custody of the State of Florida.
Undersigned counsel represents Petitioner in his state collateral appeals.
2. This case involves an appeal from the decision of the Florida Supreme Court denying Mr.
Dailey’s Successive Motion to Vacate Judgment of Conviction and Sentence of Death after
Death Warrant Signed pursuant to Florida Rule of Criminal Procedure 3.851.
3. This Court’s jurisdiction rests on 28 U.S.C. '1257(a).
1

4. Petitioner was convicted of murder and sentenced to death in the Circuit Court of the Sixth
Judicial Circuit in and for Pinellas County, Florida.
5. On September 25, 2019, Florida Governor Ron DeSantis signed Mr. Dailey’s death warrant
setting the date of his execution 43 days later: November 7, 2019.
6. On October 8, 2019, pursuant to the Florida Supreme Court’s scheduling order, Mr. Dailey
timely filed his Successive Motion to Vacate Judgment of Conviction and Sentence of
Death after Death Warrant Signed in the Circuit Court in and for Pinellas County, Florida.
7. On October 23, 2019, pursuant to a Motion filed by his federal habeas counsel, the United
States District Court for the Middle District of Florida granted a limited stay of execution.
The district court stayed the imposition of the death penalty until December 30, 2019, at
which time the stay would automatically dissolve.
8. A new execution date has not been set.
9. On November 12, 2019, the Florida Supreme Court denied Mr. Dailey’s appeal of the
denial of his successive motion for post-conviction relief. (Attachment A). A motion for
rehearing was not filed. Petitioner’s time to petition for certiorari in this Court expires on
February 10, 2020.
10. Petitioner shows the following good cause in support of this request.
11. Petitioner’s counsel, the undersigned, are employed by a state agency and have had a
burdensome caseload since the final disposition of Petitioner’s case in the Florida Supreme
Court. Within the next thirty days, Petitioner’s counsel is required to travel out of state on
two separate weeklong trips for two different capital cases, and conduct multiple state
circuit court hearings in this capital case. Moreover, Petitioner’s counsel is in the middle
2

of contested intellectual disability proceedings regarding another client with a s ix day
evidentiary scheduled to begin on March 23, 2020. As a result of all of the above, counsel
have not been able to prepare a proper Petition for a Writ of Certiorari in Petitioner' s case.
12. Counsel for the Respondent advised on January 21, 2020, that he does not oppose the reli ef
sought herein .

WHEREFORE, Petitioner, through his undersigned counsel, respectfully requests an
extension of time of twenty (20) days within which to file the Petition for Writ of Certiorari to the
Florida Supreme Court in the above-styled case .

n
ffice of the Capital Collateral Regional Counsel Middle Region
12973 N. Telecom Parkway
Temple Terrace, FL 33637
Telephone: (813) 558-1600
Facsimile : (813) 558-1601

3

I HEREBY CERTIFY that a true copy of the foregoing motion has been furnished to the
Supreme Court of the United States via electronic service and UPS and furnished by United States
Mail , first class postage prepaid, to all counsel of record on January 21 , 2020.

Usi

·, ;:f L (

/

C~hirley
Fl6rida Bar No. 112901
Email: shirley@ccmr.state.fl. us
Counsel of Record
KARA

R. 0TTERVANGER
112110

FLORIDA BAR No.

JULISSA

R. FONTAN

FLORIDA BAR No . 0032744

Office of the Capital Collateral Regional
Counsel - Middle Region
12973 N. Telecom Parkway
Temple Terrace, FL 33637
Telephone: (813) 558-1600
Facsimile: (813) 558-1601
LAURA FERNANDEZ
127 Wall Street
New Haven, Connecticut 06511
CYD OPPENHEIMER
155 West Rock Ave .
New Haven, Connecticut 06515
SETH MILLER
Innocence Project of Florida, Inc.
1100 E Park Ave
Tallahassee, Florida 32301-2651
JOSHUA DUBIN
201 S Biscayne Blvd Ste 1210
Miami, FL 33131-4316
4

Copies furnished to:
Stephen Ake & Timothy Freeland
Assistant Attorney General
Office of the Attorney General
3507 E Frontage Rd Ste 200
Tampa, FL 33607-7013
James Dailey
DC#108509
Florida State Prison
P.O. Box 800
Raiford, FL 32083

5

